IN THE
SUPREME COURT OF THE UNITED STATES
No.
PRISCILLA ANN ELLIS,

Petitioner
Vv.

UNITED STATES OF AMERICA,
Respondent
CERTIFICATE OF SERVICE

I hereby certify that on this 3rd day of September 2020, as required by
Supreme Court Rule 29, I have served the enclosed the PETITION FOR A WRIT OF
CERTIORARI and MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on
each party to the above proceeding or that party’s counsel by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid.

The names and addresses of those served are as follows:

Solicitor General of the United States

Room 5614, Department of Justice

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
Respectfully Submitted on this 3rd day of September 2020,
BJORN E. BRUNVAND
Brunvand Wise, P.A.
615 Turner Street
Clearwater, FL 33756
Telephone: (727) 446-7505
Email: bjorn@acquitter.com

Florida Bar No. 0831077
Counsel of Record for Petitioner

Ellis v. United States
Certificate of Service
Page 2 of 2
